                       OIG CLOSE OUT STATEMENT

OIG-90-3116   (flqo4




                                                      -
ON:     Allegations arising out of
      1            copyright infringement lawsuit against*
                       3


for either    -
The NSF On-line PI History Program of
means that neither has submitted a
                                   or
Science Foundation as a principal investigator.
I therefore conclude that any allegation based'on the material
submitted to the Office -of -inspector General by the
                                                   can not be
related to the National Science Foundation an close this
preliminary inquiry.




March 8, 1990
